<html>
<title> - NOMINATIONS OF HARVEY E. JOHNSON JR. AND JEFFREY WILLIAM RUNGE</title>
<body><pre>[Senate Hearing 110-577]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 110-577
 
     NOMINATIONS OF HARVEY E. JOHNSON JR. AND JEFFREY WILLIAM RUNGE 

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

  HARVEY E. JOHNSON JR. TO BE DEPUTY ADMINISTRATOR, FEDERAL EMERGENCY 
MANAGEMENT AGENCY, AND JEFFREY WILLIAM RUNGE TO BE ASSISTANT SECRETARY 
   FOR HEALTH AFFAIRS AND CHIEF MEDICAL OFFICER, U.S. DEPARTMENT OF 
                           HOMELAND SECURITY

                               __________

                           DECEMBER 12, 2007

                               __________

       Available via http://www.gpoaccess.gov/congress/index.html

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
MARK L. PRYOR, Arkansas              NORM COLEMAN, Minnesota
MARY L. LANDRIEU, Louisiana          TOM COBURN, Oklahoma
BARACK OBAMA, Illinois               PETE V. DOMENICI, New Mexico
CLAIRE McCASKILL, Missouri           JOHN WARNER, Virginia
JON TESTER, Montana                  JOHN E. SUNUNU, New Hampshire

                  Michael L. Alexander, Staff Director
                       Mary Beth Schultz, Counsel
                   Kristine V. Lam Research Assistant
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                Asha A. Mathew, Minority Senior Counsel
                   Jennifer L. Tarr, Minority Counsel
                  Trina Driessnack Tyrer, Chief Clerk




















                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Lieberman............................................     1
    Senator Collins..............................................     4
    Senator Tester...............................................    14
    Senator Akaka................................................    16
    Senator Levin................................................    18
    Senator Landrieu.............................................    21
    Senator Pryor................................................    23

                               WITNESSES
                      Wednesday, December 12, 2007

Hon. Richard Burr, a U.S. Senator from the State of North 
  Carolina.......................................................     2
Harvey E. Johnson Jr. to be Deputy Administrator, Federal 
  Emergency Management Agency, U.S. Department of Homeland 
  Security.......................................................     5
Jeffrey William Runge to be Assistant Secretary for Health 
  Affairs and Chief Medical Officer, U.S. Department of Homeland 
  Security.......................................................     8

                     Alphabetical List of Witnesses

Burr, Hon. Richard:
    Testimony....................................................     2
Johnson, Harvey E. Jr.:
    Testimony....................................................     5
    Prepared statement...........................................    33
    Biographical and professional information....................    38
    Responses to pre-hearing questions...........................    45
    Letter from U.S. Office of Government Ethics.................   111
    Responses to post-hearing questions..........................   112
Runge, Jeffrey William:
    Testimony....................................................     8
    Prepared statement...........................................   133
    Biographical and professional information....................   140
    Responses to pre-hearing questions...........................   166
    Letter from U.S. Office of Government Ethics.................   224
    Responses to post-hearing questions..........................   225

                                APPENDIX

Letter from American College of Emergency Physicians in support 
  of Dr. Runge...................................................   243
University of New Orleans Survey submitted for the record by Sen. 
  Landrieu.......................................................   244


     NOMINATIONS OF HARVEY E. JOHNSON JR. AND JEFFREY WILLIAM RUNGE

                              ----------                              


                      WEDNESDAY, DECEMBER 12, 2007

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:05 a.m., in 
Room SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman, Levin, Akaka, Pryor, Landrieu, 
Tester, and Collins.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. Good morning. The hearing will come to 
order.
    Today, our Committee will consider the nominations of 
Admiral Harvey Johnson to be the Deputy Administrator of the 
Federal Emergency Management Agency and Dr. Jeffrey William 
Runge to be the Assistant Secretary for Health Affairs and 
Chief Medical Officer, Department of Homeland Security. Both 
have been serving at DHS for some time now. We obviously thank 
them for their service. We welcome them here today, and I 
particularly want to welcome our friend and colleague, Senator 
Richard Burr of North Carolina, who will introduce Dr. Runge 
after the opening statements of Senator Collins and myself.
    These are key leadership positions the nominees are being 
considered for today. They were actually created as part of the 
Post-Katrina Emergency Management Reform Act, which came out of 
this Committee and I was proud to work on with Senator Collins. 
The Act was designed to ensure that FEMA becomes the hub of the 
Federal Government's efforts to prepare for and respond to 
disasters of all kinds, whether a natural catastrophe, 
devastating accident, or terrorist attack, and that DHS has all 
the tools it needs to protect the homeland and respond to a 
disaster when it occurs and obviously to do better than FEMA 
did in response to Hurricane Katrina.
    The FEMA Deputy Administrator will have broad 
responsibility for implementing the Post-Katrina Act and 
building a new, stronger FEMA, and that is why this nomination 
is so important. Challenges still face FEMA. There are many. 
They include leading our Nation's efforts to prepare for the 
next disaster that we know will come by strengthening FEMA's 
regional offices, hiring more career senior executives so we 
institutionalize the change, and continuing to help citizens in 
New Orleans and across the Gulf Coast who are still struggling 
to recover from Hurricanes Katrina and Rita. FEMA must focus on 
these tasks even as it responds effectively, I am pleased to 
note by all accounts, to current crises like the recent 
wildfires which have displaced families in Southern California.
    The other nomination we are going to consider today is also 
critically important to the security of our homeland. Under our 
Post-Katrina Reform Act, the Chief Medical Officer at DHS is 
the principal advisor to the Secretary on medical and public 
health issues. Among the responsibilities of the Chief Medical 
Officer is coordinating the Federal response to the threat of 
bioterrorism, which has been a continuing concern of this 
Committee and I know the Department, ensuring coordination of 
all medical preparedness and response activities of the 
Department, and serving as the public face, if you will, of DHS 
for the State, local, and tribal public health communities. 
These different elements are not traditionally within the 
confines of public health but are critically important to 
effective medical response.
    So I would say both of these nominees bring quite 
significant records of experience with them to this hearing 
today, so I thank you for offering yourselves for public 
service in these demanding jobs, both of which include some 
daunting but critically important challenges that we have to 
meet if we are going to make our country as safe as we want it 
to be. I thank you very much and look forward to your 
testimony.
    Now I would yield to Senator Collins.
    Senator Collins. Thank you, Mr. Chairman. I am going to 
yield to our colleague, Senator Burr. I know he is on a tight 
schedule, and I would be happy to have him precede my eloquent 
opening statement. [Laughter.]
    Chairman Lieberman. Thank you. That is very gracious of 
you.
    Senator Burr, we recognize you now for your undoubtedly 
eloquent introduction.

 STATEMENT OF HON. RICHARD BURR, A U.S. SENATOR FROM THE STATE 
                       OF NORTH CAROLINA

    Senator Burr. Mr. Chairman, I am grateful to you for the 
recognition, and I am grateful to Senator Collins for yielding 
to me. It makes me tempted to stay and listen to her opening 
statement. [Laughter.]
    I thank both of you as well as Senator Tester for this 
opportunity.
    Dr. Jeff Runge is before you today as the President's 
nominee to be the first Assistant Secretary for Health Affairs 
and Chief Medical Officer of the Department of Homeland 
Security. The Assistant Secretary for Health Affairs is the 
Secretary's principal advisor on public health and medical 
issues with a particular focus on biodefense planning and 
consequence management. The Office of Health Affairs is the 
Department's focal point for these matters and ensures health 
preparedness is integrated throughout the Department's 
activities.
    In the HELP Committee, we have encouraged the Department of 
Health and Human Services to build preparedness into their 
mainstream health programs, and it is equally important for DHS 
to build health preparedness into their broader homeland 
security programs.
    As you know, the threat of bioterrorism remains. We often 
think of smallpox and anthrax as the gravest bioterrorism 
threats. However, as science and technology advance, the number 
of worrisome agents is expanding. Around the world, radical 
religious groups are being urged to establish new terror cells 
that specialize in biological warfare, and it is increasingly 
easy to access Internet guides to bioterrorism, including 
methods for contaminating food and water supplies and spreading 
deadly microbes using do-it-yourself sprayers.
    Recently, Hurricanes Katrina and Rita proved once again 
that Mother Nature can also be extremely disruptive, and the 
United States is now preparing for a potential flu pandemic 
that may be carried by birds.
    The United States faces a pressing need to continuously 
improve our public health and medical preparedness and to 
develop comprehensive end-to-end biodefense plans that enable 
us to be more flexible and to rapidly respond to all hazards 
emergencies, be they natural, deliberate, or accidental. In 
collaboration with the Department of Health and Human Services, 
the Assistant Secretary for Health Affairs will lead the Nation 
in these efforts.
    Now, I believe that Dr. Runge is the right man for a number 
of reasons. Mr. Chairman, first and foremost, he is a native 
North Carolinian.
    Chairman Lieberman. That is a good beginning. [Laughter.]
    Senator Burr. Lots of good hails from my great State.
    Second, he is highly qualified, dedicated, and passionate. 
Dr. Runge is not only a physician, he has been board certified 
in emergency medicine. He is also an educator, researcher, as a 
clinical professor at the University of North Carolina at 
Chapel Hill and previously at Carolina's Medical Center in 
Charlotte, one of the busiest trauma centers in North Carolina. 
He served as the Speaker of the North Carolina Medical Society 
and the President of the North Carolina College of Emergency 
Physicians.
    As you know, Dr. Runge began his work in Washington in 2001 
when he was appointed as the Administrator of the National 
Highway Traffic Safety Administration. In that job, he 
emphasized the use of science in setting NHTSA's policy and was 
a persistent advocate for his priorities. He racked up a long 
list of accomplishments when he left the job, including the 
lowest highway fatality rate and the highest safety belt usage 
in U.S. history.
    When Dr. Runge left NHTSA, Secretary Mineta at the time 
said we are all a little bit safer because of his dedication to 
the safety cause. Mr. Chairman, I believe we will all be a 
little bit safer with Dr. Runge at the helm as DHS Assistant 
Secretary for Health Affairs.
    Mr. Chairman, Dr. Runge is a good man. He is a proven 
leader. He is a skilled physician and I am proud to call him a 
friend. I hope that my colleagues on this panel will see a need 
to expedite this confirmation in a way that we can fill the 
slot in a permanent fashion before we leave this calendar year. 
I thank the Chairman for his time.
    Chairman Lieberman. Thanks, Senator Burr. That is an 
obviously not only eloquent, but deeply felt statement, 
clearly. Thanks also, I want to note for the record, for the 
leadership role you have assumed here in moving our Government 
to be better prepared to both prevent and respond to a 
bioterrorist attack. You have done uniquely and singularly 
important work, and we on this Committee look forward to 
working with you in the months and years ahead.
    Senator Collins.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Thank you. Senator Burr, you may leave. 
[Laughter.]
    Mr. Chairman, as you mentioned, the two nominations we are 
considering today are for positions that Congress specifically 
authorized last year when we drafted and passed the Post-
Katrina Emergency Management Reform Act. That was the law that 
completely revamped FEMA. This Committee's comprehensive 
investigation into the flawed response to Hurricane Katrina 
revealed fundamental problems with our Nation's preparedness 
for catastrophic disasters. Our decisions to establish the 
Office of Chief Medical Officer, to elevate this position to 
the level of Assistant Secretary, and to completely retool the 
Federal Emergency Management Agency were based on key findings 
from this Committee's investigation.
    We do have two highly qualified nominees before us today. 
Dr. Jeffrey Runge has been nominated to serve as the 
Department's primary expert for medical issues related to 
terrorism and natural disaster, a position that he now holds on 
an Acting basis. The responsibilities, as Senator Burr has 
outlined, for this position are indeed significant. They 
include ensuring the safety of first responders who operate in 
disaster areas, overseeing the work of the National 
Biosurveillance Integration Center, coordinating with other 
Federal departments and agencies on medical and public health 
matters such as a possible influenza pandemic, and taking 
action to ensure the security of our food supply, an area where 
I believe we need to do much more.
    I am concerned about the role that the Office of Health 
Affairs played in conveying timely information about a case of 
considerable concern to this Committee involving an infected 
Mexican national who was able to cross our borders several 
times, and I will be pursuing that issue in my questioning.
    I am also particularly interested to hear Dr. Runge's 
thoughts on achieving full activation of the Biosurveillance 
Center. In August, the DHS Inspector General reported slow 
progress on this program, largely due to frequent relocations 
that undermined management consistency, institutional 
knowledge, and momentum. Given the considerable danger posed by 
the threat of bioterrorism, as well as naturally occurring 
pathogens, I want to learn more about what progress has been 
made in this area.
    Like Dr. Runge, Admiral Harvey Johnson also has an 
impressive track record for the position for which he has been 
nominated and in which he is currently serving, again in an 
Acting capacity. He brings many years of public service in the 
Coast Guard to this position, and he has presided over 
significant improvements in FEMA's performance, for which he 
deserves significant credit. Unfortunately, as everyone is well 
aware, he also had the misfortune to preside over a very 
controversial press conference, and I will be asking him 
questions about that, as well.
    The FEMA Reform Act placed heavy emphasis on qualified 
leadership for both of these important positions. FEMA needs 
strong leadership, as does the Office of Health Affairs. I look 
forward to hearing the two nominees' thoughts on what they have 
already accomplished in their considerable service and what 
their plans are.
    Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you very much, Senator Collins.
    We will move now to the nominees. Both have filed responses 
to a biographical and financial questionnaire, answered pre-
hearing questions submitted by the Committee, and both have had 
their financial statements reviewed by the Office of Government 
Ethics. Without objection, this information will be made part 
of the hearing record, with the exception of the financial 
data, which are on file and available for public inspection in 
the Committee's offices.
    Our Committee rules, as you probably know, require that all 
witnesses at nomination hearings give their testimony under 
oath, so Admiral Johnson and Dr. Runge, I will ask you now to 
please stand and raise your right hand.
    Do you swear that the testimony you are about to give to 
this Committee will be the truth, the whole truth, and nothing 
but the truth, so help you, God?
    Mr. Johnson. I do.
    Dr. Runge. I do.
    Chairman Lieberman. Thank you. Please be seated.
    Admiral Johnson, we will begin with you. I understand you 
have family members with you this morning. We welcome them, and 
I invite you to introduce them and then proceed with your 
opening statement.

      TESTIMONY OF HARVEY E. JOHNSON JR.\1\ TO BE DEPUTY 
   ADMINISTRATOR, FEDERAL EMERGENCY MANAGEMENT AGENCY, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Johnson. Thank you, Mr. Chairman. Thank you, Senator 
Collins. And thank you, Members of the Committee. I would like 
to introduce my wife, Janet, who is with me. We just had our 
30th anniversary not long ago----
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Johnson appears in the Appendix 
on page 33.
---------------------------------------------------------------------------
    Chairman Lieberman. Congratulations.
    Mr. Johnson [continuing.] And so she has been a supporter 
for me in a long Coast Guard career and in FEMA. And my 
daughter, Jennifer, joins me today. Jennifer is a young 
professional here in Washington, DC. My son, Scott, is a 
professional in New York City, and he is working today.
    Chairman Lieberman. OK. We welcome both of you and thank 
you for your support of the Admiral. Please proceed.
    Mr. Johnson. Thank you, sir. I am honored to come before 
you today as the President's nominee for the Deputy 
Administrator of the Federal Emergency Management Agency 
(FEMA), as reorganized in accordance with the Post-Katrina 
Emergency Management Reform Act. It has been my distinct 
privilege to serve over the past 20 months in this capacity 
alongside FEMA Administrator David Paulison, and I welcome the 
opportunity to continue my service with him to FEMA and the 
American people whom we serve. I appreciate the confidence 
expressed in me by the President and by Secretary Chertoff.
    I have already thanked my family, and I just wanted to 
comment again that life in FEMA and life in Federal service can 
sometimes be demanding and sometimes unpredictable, but my 
family does recognize that I have been given a tremendous 
opportunity to serve our Nation in a position that really makes 
a difference. My family also understands that service has both 
its challenges and its rewards, as I have spent close to 38 
years in public service.
    I have learned almost all that I know about leading 
individuals and leading organizations by being in the U.S. 
Coast Guard. That is where I began as an operator aboard a 
cutter. I transitioned to the cockpit of a helicopter and 
exercised command from the Operational Command Center. That is 
where I learned that government really can serve citizens when 
they most need it and can do it efficiently, effectively, with 
passion, and with compassion, and that such service can be 
rewarding beyond measure.
    My journey to this hearing began in 1971 as a cadet of the 
Coast Guard Academy in New London, Connecticut, and continued 
aboard the Coast Guard Cutter Steadfast, where I learned to 
appreciate the art and the science of seamanship and also the 
value of leadership and teamwork toward common objectives. I 
earned my Coast Guard aviator wings in 1977 and piloted Coast 
Guard helicopters over the next 22 years in the conduct of law 
enforcement missions and search and rescue, and there I learned 
to be exacting both in my mental preparation and aeronautical 
preparation because errors in judgment can be very costly both 
to me and to my air crew.
    I gained invaluable operational experience in a service 
dedicated to saving lives, protecting the environment, and 
enforcing the law, and embraced the Coast Guard's core values 
of honor, respect, and devotion to duty and made them my own. I 
earned a Masters of Science degree at the Naval Post-Graduate 
School and another at the Sloan School of Management at the 
Massachusetts Institute of Technology, and I gained experience 
in finance and people management, strategic planning, 
interagency operations, all skills that benefit me now, in my 
responsibilities at FEMA.
    I was honored to be selected to command two air stations, 
and particularly honored to be selected as a flag officer and 
then as a manager of the Coast Guard senior leadership team, 
where we shaped mission performance to measurably affect 
outcomes. I was selected by the Commandant to lead the Coast 
Guard's integration into the Department of Homeland Security, 
and now I work to strengthen the Department from a different 
perspective.
    At the flag level, I commanded the Coast Guard's Seventh 
District in Miami, Florida, and that is the Coast Guard's most 
intensive operationally oriented area of operations. As a Vice 
Admiral, I commanded the Coast Guard's Pacific Area, which is 
the largest geographic expanse, which includes all Coast Guard 
missions from the Rocky Mountains west to the Far East, and did 
both successfully as a beneficiary of the dedicated work of 
Coast Guard men and women.
    I describe these extensive operational background and the 
breadth of leadership experience humbly and without undue 
pride, not for any self-promotion, but to submit to you that I 
am both qualified and prepared to accept the responsibilities 
for which the President has nominated me and for which I ask 
for your confirmation.
    Working with Administrator Paulison, we set a vision for a 
``New FEMA'' that charts a course to become the Nation's 
preeminent emergency management and preparedness agency. We 
have established an ethos of leaning forward to provide more 
effective assistance to disaster victims and to communities, 
and it is our objective to develop operational core 
competencies, to strengthen a dedicated workforce, and to 
foster a business approach to business, and as we do that, 
every member of FEMA works toward these objectives. Our intent 
is to better prepare the Nation against the risk of an all 
hazards disaster and, when that disaster occurs, to marshal a 
more effective national response and to work more purposefully 
to speed the recovery of disaster victims and communities.
    By establishing the moniker of ``New FEMA,'' we recognize 
that judgment on our progress would be determined by our 
actions, not by our words, and so as we have turned our words 
into actions during this past year, our opportunities for 
success have been strengthened by three supporting elements: 
First, a phenomenally dedicated workforce comprised of proud 
and resourceful professional men and women in FEMA; second, a 
supportive Congress that has provided the tools we need in the 
form of legislation and constructive oversight; and third, an 
operationally oriented and operationally focused President and 
Secretary who have requested the resources that we need to do 
our job and have demonstrated confidence in our leadership and 
our decisionmaking.
    Though difficult and challenging to walk beyond the shadow 
of Hurricane Katrina, that visage is steadily being replaced by 
a more confident and more competent New FEMA. It was New FEMA 
that responded to tornadoes in Florida, Georgia, and Alabama, 
to the Nor'easter in New England, to the wildfires in 
California, and to the ice storms now gripping the Midwest. 
Now, to be sure, our success was enhanced by partnerships 
across the Federal, State, and local jurisdictions, by 
nongovernmental organizations, and by the private sector, but 
Mr. Chairman, the leadership was New FEMA.
    Mr. Chairman, Senator Collins, and distinguished Members of 
this Committee, I thank you again for considering my 
nomination, and if confirmed, I pledge to you that I will 
continue to work closely with you to achieve the objectives 
that we both share, and that is to ensure a more safe and 
secure America. I thank you, and I look forward to responding 
to your questions.
    Chairman Lieberman. Thanks, Admiral Johnson. That was a 
very strong opening statement. I appreciate it.
    Dr. Runge, I gather you have some family with you here 
today. We welcome them and encourage you to introduce them and 
then proceed with your statement.

    TESTIMONY OF JEFFREY WILLIAM RUNGE \1\ TO BE ASSISTANT 
 SECRETARY FOR HEALTH AFFAIRS AND CHIEF MEDICAL OFFICER, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Dr. Runge. My wife, Ginny, is here in the second row. My 
friend and pastor, the Reverend Ed Miller. My friend of 35 
years, Jim Grater, is on the right. My daughter, Emily, is in 
graduate school in Nashville, and my son, Will, is probably 
holding down the fort in your home State at Wesleyann 
University.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. Runge appears in the Appendix on 
page 133.
---------------------------------------------------------------------------
    Chairman Lieberman. We will try to take care of him while 
he is there.
    Dr. Runge. Thank you.
    Chairman Lieberman. It is pretty strong to have both your 
wife and your pastor behind you.
    Dr. Runge. Well, you never know what is going to come up in 
these hearings. [Laughter.]
    I will be brief. You have my written statement for the 
record. You also have 56 pages of personal and policy 
information, so let me just first of all thank you for having 
this hearing and for authorizing our Office of the Chief 
Medical Officer in the Post-Katrina Act. I think that is very 
important for us, for DHS, and for our staff.
    I also want to thank my friend, Senator Burr, for his warm 
introduction, and perhaps most of all to Secretary Chertoff and 
to President Bush for giving me this opportunity in the form of 
a nomination.
    As Senator Collins said, our Nation is threatened, our 
citizens are threatened by both acts of aggression by 
individuals, by groups or foreign states, as well as natural 
events. The events of the last 6 years within our homeland have 
spurred many people like me to action who otherwise might have 
been very comfortable in a profession in the private sector. I 
have been fortunate to be part of our Department's start-up and 
maturation. I have witnessed firsthand real leadership and 
singleness of purpose that I have never seen anywhere, both 
from Secretary Chertoff and Deputy Secretary Jackson and the 
incredible professional staff at DHS.
    I have also learned a lot from weathering the storms of the 
challenging merger and the creation of a culture where there 
once was nothing. Mr. Chairman, the Committee, I know, is very 
aware of these challenges, and we look forward to your support 
as we continue to form this ``culture of DHS.''
    I also look forward to finishing the tasks I began as the 
first Chief Medical Officer of the Department. In that time, we 
have focused on giving the Secretary, and the Department, 
medical support for overseeing the health and medical 
activities in the Department, to lead and coalesce all the 
Department's biodefense activities that had been helter skelter 
around the Department, to developing weapons of mass 
destruction planning and catastrophic incident management, and 
finally, something that was not in the authorization but which 
we deem very important, to ensure that the Department's 
employees, our workforce, are supported by an effective 
occupational health and workforce protection program.
    We have been successful in attracting some of the top 
leaders in their fields, including physicians who are trained 
in emergency medicine, emergency medical services, trauma care, 
occupational health and safety; veterinarians specializing in 
animal public health and biological threats; Ph.D.'s trained in 
biosurveillance and chemical and biological defense; as well as 
professionals with legal and policy expertise. We have also 
attracted some of the Department's best up-and-coming 
administrative and management professionals to assure that we 
have the infrastructure in place to support our program 
experts.
    Mr. Chairman, building a top-notch career workforce has 
been my top priority. We have to have a career workforce to 
protect our Nation during times of transition of political 
leadership and beyond. This is paramount to our future success.
    I am also honored to be here with my friend and colleague, 
Admiral Johnson, who, with Administrator Paulison, has truly 
retooled FEMA. The latest responses that FEMA has accomplished 
are evidence of that, and our office is privileged to support 
them on all medical and public health matters.
    Finally, Mr. Chairman, I look forward to working with your 
staff on the panoply of issues that we deal with and that come 
parachuting in, it seems, almost daily. Standing up this 
capability for the Secretary and the Country has been one of 
the greatest challenges and rewards of my professional life. I 
do believe that we are headed in the right direction and are 
making some tangible progress in defending our homeland. Thank 
you.
    Chairman Lieberman. Thanks, Dr. Runge, for an excellent 
opening statement.
    I am going to start my questioning with the standard 
questions we ask of all nominees, and I ask that you respond 
together to each of these questions.
    First, is there anything that you are aware of in your 
background that might present a conflict of interest with the 
duties of the office to which you have been nominated?
    Mr. Johnson. No, sir.
    Dr. Runge. No, sir.
    Chairman Lieberman. Second, do you know of anything 
personal or otherwise that would in any way prevent you from 
fully and honorably discharging the responsibilities of the 
office to which you have been nominated?
    Mr. Johnson. No, sir.
    Dr. Runge. No, sir.
    Chairman Lieberman. And finally, do you agree without 
reservation to respond to any reasonable summons to appear or 
to testify before any duly constituted Committee of Congress if 
you are confirmed?
    Mr. Johnson. Yes, sir.
    Dr. Runge. Yes.
    Chairman Lieberman. Thank you. We are going to start with a 
first round of questions of 6 minutes each. I appreciate the 
fact that we have a good representation of Members of the 
Committee here today.
    Dr. Runge, let me ask you about a controversial case that 
has engaged the interest of the Committee, and in fact, we are 
conducting an investigation. This is the Mexican national with 
multi-drug-resistant tuberculosis who was allowed to repeatedly 
enter the United States undetected in April and May of this 
year after the Centers for Disease Control and Prevention 
warned U.S. Customs and Border Protection and the Office of 
Health Affairs that he should be detained at a port of entry. 
As Chief Medical Officer at DHS, obviously, you had some 
involvement in this problem.
    As I am sure you know, the World Health Organization issued 
guidelines for reducing the risk of multi-drug-resistant TB on 
aircraft in 2006. Those guidelines state that individuals with 
this form of TB should not travel by public air transportation 
until they have proven to be non-infectious. I will say to you 
that personally, I always try to approach these difficult 
situations not so much in a ``gotcha'' frame of mind, but in 
terms of what happened and what lessons do we learn as we go 
forward.
    In your response to questions asked by our staff in the 
pre-hearing interviews on this matter, you responded that 
neither you nor anyone else at the Office of Health Affairs 
immediately notified the Transportation Security Administration 
that the Mexican national could attempt to board an aircraft in 
the United States while still infectious. In fact, it was not 
until a month after the office was warned by CDC about this 
individual and the DHS National Operations Center informed TSA 
and TSA placed him on a ``do not board'' list.
    So my concern here, and I ask you to reflect on it, is why 
the Office of Health Affairs did not apparently respond 
adequately to this incident, and I would ask you in your answer 
to relate that to the World Health Organization guidelines.
    Dr. Runge. Thank you, Mr. Chairman. It is going to be 
difficult to answer this question in 3 minutes and 49 seconds. 
This is an issue that played out over a period of about 6 
weeks. We were first notified at the end of April that there 
was an issue with someone who was being treated for 
tuberculosis by Project Juntos, which is a clinic that is 
operated by the Texas Department of Public Health in Mexico. 
The axiom of tuberculosis treatment is that patient 
volunteerism is essential to its success. He was being 
successfully treated by the physicians in Mexico who were 
concerned about the possibility of his traveling and had thus 
notified the Texas Department of Public Health. They 
subsequently notified the CDC that this gentleman was a 
businessman and had a business in the United States and was 
going back and forth, and his doctors advised him at that point 
not to travel. The Office of Health Affairs was advised of 
this.
    We have two basic functions. One is to support the CDC's 
Division of Global Migration and Quarantine in their health 
decisions. The second is to make sure that our components and 
headquarters are supported in performing those actions.
    Now, if you recall, earlier this year, we really didn't 
have an institution in place, a standard operating procedure, 
to deal with this at the headquarters level. This was prior to 
the Andrew Speaker case. We have since developed a Standard 
Operating Procedure (SOP) to deal with these issues.
    By the time this came to headquarters' attention, this 
gentleman had already been successfully treated, or was being 
successfully treated, and probably had an insignificant 
infection risk. My response at the time when I heard about this 
was to take his visa, or his border crossing card. I brought 
this up with the senior management of DHS in our morning 
meeting, our morning stand-up, at 8:15 and the Deputy Secretary 
concurred.
    We subsequently told the CDC that we wanted the physician 
to tell him that he had to turn in his border crossing card to 
authorities, and they talked us out of it. They said, you know 
what? If we drive people underground and prevent them from 
going voluntarily to receive TB treatment in this TB-prevalent 
area south of the border, it is actually going to be worse for 
public health than if this guy comes across the border under 
treatment.
    Chairman Lieberman. Who made that decision ultimately?
    Dr. Runge. That decision was made by the CDC's Division of 
Global Migration and Quarantine.
    Chairman Lieberman. Did you agree with it in the end, or 
did you hold to your initial opinion that the visa should be 
pulled?
    Dr. Runge. Well, I actually held to my opinion, although 
the case is very compelling that if word gets out among the 
Mexican nationals who are being voluntarily treated here that 
if they go to the clinic they run the risk of having their 
border crossing card pulled, it may be worse for public health. 
And so I yielded to the CDC on this issue. However, this 
gentleman was still in the ``be on the lookout'' system for 
CBP.
    It actually wasn't until his physician became more 
concerned that he (the patient) was actually in violation of 
his contract not to travel that he reported this back again to 
the Texas Department of Public Health. They told us about it 
again. We urged them to find some additional information on 
this guy, because obviously if we had his right identification, 
he would not have been allowed to cross.
    About a week later, he came in and confessed to his doctor 
at Project Juntos that, in fact, he was feeling some remorse 
about this. He saw the negative press that Mr. Speaker was 
getting in the United States----
    Chairman Lieberman. Right.
    Dr. Runge [continuing]. And voluntarily turned in his 
border card, and at that point it became apparent that the name 
that he had given was incomplete, that he had reversed the 
maternal and paternal last names and so forth, and you know all 
those details. So at that point, there was no danger of him 
crossing the border anymore. Moreover, with respect to the 
flight issue----
    Chairman Lieberman. Yes. Tell me about that. As you look 
back at it, do you think that there should have been an 
explicit notice that he should not have been allowed on air 
flights?
    Dr. Runge. Well, since right about that week, we developed 
the SOP with TSA----
    Chairman Lieberman. Yes.
    Dr. Runge [continuing]. And found a way to keep them off of 
planes, not being on a terrorist watch list, which the 
Department of Justice is very loath to do--put somebody on a 
terrorist watch list.
    Chairman Lieberman. So now there is a procedure in place 
that would keep them off of an aircraft?
    Dr. Runge. Yes, sir.
    Chairman Lieberman. My staff apparently has been having 
some trouble, I don't believe with you, with the Department in 
getting a copy--to our staff--of the standard operating 
procedure. Would you commit to us this morning that you will 
get those to us as soon as possible?
    Dr. Runge. Absolutely, and----
    Chairman Lieberman. It is in effect now, I take it?
    Dr. Runge. Yes. We have been using it since June. I sent a 
flow diagram over to your staff. The SOP actually needs to be 
signed off by the head of our Operations Coordination 
Directorate.
    Chairman Lieberman. OK. I will tell you I am not an expert 
at this, but I think your original judgment was right and that 
they should have pulled his visa, even though I understand 
there is an argument on the other side. It is not clear, 
absolutely right or absolutely wrong, but I think the 
predominance of common sense was on your side on that original 
judgment. I thank you.
    Senator Collins.
    Senator Collins. Thank you. Admiral Johnson, I want to talk 
to you first about the press conference that you held on 
October 23 in order to inform the press about FEMA's response 
to the California wildfires. Because FEMA gave very short 
notice to the members of the press about this press conference, 
there were, in fact, no reporters present at the press 
conference. Some were listening by phone, but there were no 
journalists in the room. You proceeded to take several 
questions from departmental employees who were posing 
essentially as reporters.
    Now, what I want to do is to ask you a series of questions 
so that we can better understand the state of your knowledge 
when you learned certain vital information and exactly what 
happened.
    First, did you learn prior to going into the press 
conference that there were no journalists present?
    Mr. Johnson. No, ma'am. As I entered the press conference, 
it was my understanding at that time that there were media that 
would be present in the press room for the briefing.
    Senator Collins. During the press conference, did you 
realize that there were no members of the press actually 
present?
    Mr. Johnson. No, ma'am. In the press room, and people have 
seen different pictures of the press room, one picture 
accurately reflects people that I knew that were members of my 
immediate staff and part of the staff that I engage with 
routinely. The picture doesn't show the right-hand side of the 
room, which had a number of people, perhaps six to eight 
people, who were dressed casually, in my view. I did not know 
them personally, and they looked as if they could have been 
media that I would typically engage in a press interview. So 
when I entered the room and looked at who was in front of me, 
it looked to me like I was seeing people that I did not know, 
and I presumed they were members of the press.
    Senator Collins. When did you actually learn that members 
of the press were not present?
    Mr. Johnson. Well, that news conference took place on a 
Tuesday, and the first indication I had that we had made a 
serious mistake was on a Thursday when I received an e-mail 
from a Washington Post reporter indicating he wanted to ask 
some questions about that interview. So it really wasn't my 
knowledge from Tuesday through Thursday that the room was 
filled with members of the FEMA staff.
    Senator Collins. So until a reporter e-mailed you and asked 
you about this press conference, you had no realization that 
the press conference was not a legitimate, typical, authentic 
press conference----
    Mr. Johnson. Yes, ma'am----
    Senator Collins. Is that correct?
    Mr. Johnson. Yes, ma'am, that is correct. If I may----
    Senator Collins. Yes.
    Mr. Johnson [continuing]. I would like to offer a couple 
comments that might be helpful, as well. First, I----
    Senator Collins. Let me just ask one question and then I 
will let you explain.
    Mr. Johnson. Yes, ma'am.
    Senator Collins. Just to complete this, did you in any way 
direct FEMA to stage this press conference?
    Mr. Johnson. No, ma'am.
    Senator Collins. So you went into the press conference 
assuming that these were reporters. You answered questions 
assuming that these were reporters. And it was only when you 
were contacted by the Washington Post 2 days after the press 
conference that you realized what had happened?
    Mr. Johnson. Yes, ma'am, that is correct, and let me just--
--
    Senator Collins. Then go ahead.
    Mr. Johnson [continuing.] Be pointed. As I was taking 
questions, I certainly knew that the questions that were asked 
by people I knew from FEMA were from FEMA, and I will talk 
about it in just a second. And then the last question that was 
asked was by a person who I did not know who was from FEMA, but 
I did not know at the time, and who I presumed was a member of 
the press.
    If I can make a couple comments. First, I want to 
acknowledge that I am the Acting Deputy Administrator of FEMA, 
Chief Operating Officer of FEMA, and what goes on inside that 
agency in large part is a shared responsibility between me and 
David Paulison. I was the senior person present at that news 
conference, and so that news conference and the content of that 
conference was my responsibility, and I don't walk away from 
that.
    I issued an apology the morning after I became aware of the 
circumstances of that news conference, and with David Paulison, 
at his direction and with my support, we have taken significant 
actions to ensure that event does not occur again.
    The second point I would like to make is that this news 
conference is extremely regrettable, and I know that you regret 
it as a Committee because of your investment in FEMA, but I 
have to tell you that personally, I talked to you about my 38 
years in public service. I talked to you about core values that 
I have embraced as my core values, and the end result of that 
news conference was in conflict with my core values, and so I 
personally regret that news conference.
    From a professional perspective, that is not how we want to 
do business in New FEMA, and we talk a lot about New FEMA, and 
that news conference has cast a shadow on that, and so I regret 
it from that perspective.
    And perhaps the third perspective is that if we talk about 
New FEMA and we want New FEMA to be reflected in our actions, 
we demonstrated New FEMA in California wildfires, and with our 
partners in the State, we did a phenomenal job in responding to 
a disaster on very short notice, and I regret that the news 
conference cast a shadow on that performance, as well.
    The third comment I would like to make is it is repairable. 
At Dave Paulison's direction, we have taken a number of 
actions. We brought a respected member of the news media in to 
meet with our public affairs staff just to hold a session on 
ethics and media.
    I don't recall the exact name, I apologize to the 
association, but we have gone to a public affairs association, 
and they came in and I was a part of, a short part of this 
session. But they came in and spent a complete afternoon in an 
iterate back-and-forth presentation with all of our staff, 
including those in the regions that participated by video 
conference, on a little bit of ethics in journalism, but really 
professionalism in journalism.
    In FEMA, of all the many things we do right, one that we 
don't do well is invest in our people, and Dave Paulison is 
going to fix that, but we are about right now investing in the 
professionalism of our public affairs staff. They are good 
people, and this was an unfortunate sum of a series of bad 
decisions. No one on that staff intended or planned to have the 
news conference turn out the way it did. Everyone who was 
involved in that process made decisions at the time that they 
thought would have provided good information to the public, 
responsive to questions we had received from the media, and 
again, I think from me to everyone involved, there is just 
sincere regret for that occurrence.
    Senator Collins. Thank you.
    Chairman Lieberman. Thank you, Senator Collins. Senator 
Tester, good morning.

              OPENING STATEMENT OF SENATOR TESTER

    Senator Tester. Good morning, Mr. Chairman. Thank you very 
much. The standard operating procedure--and again I can't speak 
for the rest of the Committee--but I would love to see it, too.
    Chairman Lieberman. Yes, absolutely. It is real important. 
Dr. Runge, if you can do that later today, it would mean a lot 
to the Committee.
    Dr. Runge. I certainly will. Actually, I did send this flow 
diagram over to your staff on Monday. This is not the written 
standard operating procedure (SOP).
    Chairman Lieberman. Good. Thank you.
    Senator Tester. Yes, thank you, and I am going to follow up 
on some of Senator Collins's questions in regard to the news 
conference, too. So when you entered this news conference, were 
there folks who you knew that were from FEMA that were asking 
questions?
    Mr. Johnson. Yes, sir. As may be the case with your press 
conference, when I entered the room, my staff was with me, and 
so we entered the room from two separate angles. I walked into 
our press room, which some of your staff have been in, and I 
was at the podium, and then my staff came in and took these 
front seats, as you perhaps have seen in the picture. Already 
in the room were another perhaps six to eight to ten people who 
turned out to be FEMA employees.
    Senator Tester. And they were the folks that were doing the 
questioning of you, the FEMA employees, so you knew that they 
were FEMA employees, with the exception of one person?
    Mr. Johnson. As they began to ask questions, again, looking 
back, six questions asked, the first five by people who I knew 
from my staff----
    Senator Tester. Didn't you find that a bit odd?
    Mr. Johnson. As those questions were being asked, it was 
odd that a member of my staff would be asking me a question. As 
those questions occurred one at a time, I fully expected that 
the following question would come from a member of what I 
thought was the news media----
    Senator Tester. OK.
    Mr. Johnson [continuing.] And those played out that way, 
one at a time.
    Senator Tester. You have already expressed through Senator 
Collins's questions that this went against your core values, 
and you do have a very impressive resume with accomplishments 
and awards. You also said there was a series of bad decisions. 
I think Secretary Chertoff called this one of the dumbest and 
most inappropriate things he has ever seen since he has been in 
government. I think you agreed with that assessment.
    Do you know who initiated the press conference?
    Mr. Johnson. The press conference was initiated by our 
Director of External Affairs, Pat Philbin.
    Senator Tester. Is he still with the agency?
    Mr. Johnson. He is not.
    Senator Tester. Was he retired because of this incident?
    Mr. Johnson. He had already submitted his resignation from 
FEMA and was en route to a follow-on assignment in government, 
and so actually, this news conference was on a Tuesday and his 
last day in FEMA was scheduled to be on Friday.
    Senator Tester. And he was singularly responsible for the 
incident?
    Mr. Johnson. Within the Directorate of External Affairs, it 
was his responsibility to organize and arrange the press 
conference. He was assisted by a number of members of his 
staff, but that was his primary responsibility.
    Senator Tester. We have all been involved with press 
conferences in the positions we are in on a regular basis, and 
I can tell you if I had a press conference and I walked in and 
my staff was asking me one question, red flags would go up. The 
question is that your resume indicates you are a leader. Your 
history of 38 years in public service indicates that you are a 
leader. Why didn't you just say, hold it. What is going on?
    Mr. Johnson. Well, sir, in retrospect, there are a number 
of places where we could have changed and altered the course of 
that press conference and yet accomplished our task. I have 
certainly gone over in my mind a number of times the actions 
that I could have taken that could have changed the course of 
that press conference.
    Senator Tester. OK. One of your bosses, Robert Jamison, was 
in here a bit ago, and he had some trouble with contract 
employees responding to some of the questions, and that was an 
issue that this Committee took up. I just want to get your 
perspective on FEMA's reliance on contractors, not necessarily 
in an emergency situation but in day-to-day operation of the 
agency. What is your perspective? How do you feel about 
contractors?
    Mr. Johnson. I think that it may surprise you or others 
that there are only 2,300 permanent full-time members of FEMA. 
That is smaller than most junior high schools in America.
    Senator Tester. Out of how many total?
    Mr. Johnson. Out of America?
    Senator Tester. No, out of what is in the agency including 
the contractors.
    Mr. Johnson. There are close to 3,000 FEMA permanent 
employees. There are about 8,500 temporary FEMA employees that 
come in the form of what we call core employees or disaster 
assistance employees, and those allow us to have perhaps a less 
user reliance on contractors than perhaps some agencies. We 
currently have badged into FEMA across our agency close to 
2,500 contract employees, and those are stretched not just in 
headquarters, but across all of our agency.
    Senator Tester. Are you happy with that situation versus 
full-time employees?
    Mr. Johnson. Well, certainly when the President's budget is 
approved, we will grow by 250 full-time employees, and that 
will allow us to decrease our number of contractors.
    Senator Tester. I just want your perspective on the 
contractors.
    Mr. Johnson. I think that FEMA appropriately employs 
contractors to do the right types of work.
    Senator Tester. OK.
    Mr. Johnson. We have some flexibilities that other agencies 
don't have and so that gives us a greater latitude to do that.
    Senator Tester. OK. We will have another round of 
questions, so I will forego the last 45 seconds.
    Chairman Lieberman. Thanks, Senator Tester. Senator Akaka, 
you are next.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Thank you very much, Mr. Chairman.
    Admiral Johnson, let me ask you about something that is 
closer to the Pacific and really about Hawaii. You have spoken 
about your plans to enhance the role of the FEMA regional 
offices and to place people in those offices to help States 
deal with the grant application process. For me, this is a 
welcome initiative. I think that FEMA over time has had so many 
problems and many of them, as we have found out through the 
hearings that we have had, have been those of personnel, so we 
really need to work on that.
    As a former Pacific Area Commander in the U.S. Coast Guard, 
you are well aware of the unique challenges faced by Hawaii and 
its role in providing support to Pacific Rim countries and U.S. 
Territories in the region. For that reason, I have long 
advocated a FEMA Regional Office in Hawaii and would like to 
discuss further with you that possibility.
    In your role as Deputy Administrator, would you commit to 
reviewing Hawaii's special needs and the Pacific's special 
needs and report back to me on the viability of establishing a 
FEMA Regional Office for Hawaii?
    Mr. Johnson. Senator Akaka, I would be very pleased to do 
that. I have spent 2 years as Commander of the Coast Guard's 
Pacific Area. I spent a number of times in Hawaii, and then 
through Hawaii to the same locations that you speak of, out to 
Guam and to Micronesia, and certainly places even further. I 
have watched Nancy Ward, who was our Regional Administrator in 
Alameda Region IX, work very well with our area office 
established in Hawaii and I think that you make a strong point 
about the size of the FEMA presence. I would be very pleased to 
look at that again and discuss that with your staff.
    Senator Akaka. Thank you, Admiral.
    Dr. Runge, can you tell me the status of the National 
Biosurveillance Integration Center, we know it as NBIC, and 
what your goals for NBIC over the next year or two will be?
    Dr. Runge. Senator Akaka, first of all, I want to thank the 
Congress for actually providing the National Biosurveillance 
Integration Center with a specific authorization in the 9/11 
Act. It is also very important to institutionalize this 
function.
    This was an idea that was generated partially over here in 
the Senate and partially in the White House. This was supposed 
to be a neutual ground where biosurveillance information on 
human health, animal health, food, water, and the environment 
could all be shared and then put into what we call a biological 
common operating picture so that everyone who has a duty around 
biosurveillance or bioprotection would have access to the same 
information as everyone else. That currently does not exist and 
has never existed across the Federal Government or the private 
sector.
    This program was first funded in 2004, and frankly, because 
there were other priorities in the office where it was located, 
it languished. And some people were leading the program that 
had ideas about making it an intelligence community function 
and so forth, which really was not compatible with our vision 
of an open source biological common operating picture.
    We assumed responsibility for that program a little over a 
year ago. We assumed it with its legacy budget, but no Federal 
FTEs. Not one FTE was brought over with the program to the 
Office of Health Affairs. Since we were at that time a group of 
about eight or nine people, we didn't have FTEs to devote to 
the program, but I did send over my Chief Scientist to turn 
that program around and to get it back on track, to reach out 
to HHS, to CDC, to Interior, to State, to DOT and others to 
bring them into the dance.
    Our program depends--and this is where I am heading this 
year--our program is not so much about the system or the IT 
system, it is about the people. The people make the Center. And 
it is about a group of smart people sitting around the table 
who have access to their own data in their specific areas who 
are able to look at it, contribute to an analysis, and then put 
it up there so that everybody can see the biological common 
operating picture.
    The good news is that we do have an IT system that should 
be up and running in January that will be a platform for this 
information to exist and to actually come up on the screens of 
anyone who has the authority to look at it. It could come up in 
the Chairman's office here. It could come up anywhere. What we 
lack now is actually getting the people in the chairs. We are 
in the middle of the interagency agreements necessary to do 
that. Our intention is to fund those positions for the agencies 
so we are not dependent on their charity to actually stand up 
this Center. We are in the budget discussions about how to do 
that, but we think it is very important to get long-term 
detailees who will be trained in analytics and will know each 
other and will know the data within their own centers.
    Senator Akaka. My question will take me a little longer, 
but let me say that I appreciate the authorization of NBIC in 
the 9/11 bill having to do with a common biological operating 
picture and I was very pleased to hear that your office has 
been working with the International Species Information System 
on its veterinary recordkeeping system called ZIMS as an input 
to NBIC. I would like to ask you for information about what the 
status of those discussions is and ask you to do it for the 
record because of time here.
    Dr. Runge. We will, Senator Akaka. Thank you very much. 
There is a predominant problem and that is that there are many 
data systems that we would like to have access to, but they are 
expensive. And frankly, if we have to pay $1 million to ARGUS 
or $1 million to ZIMS, pretty soon our $8 million budget is 
gone. So we need to be able to figure out how to get over the 
hurdle of having to pay for those data.
    Senator Akaka. Thank you. Thank you very much, Mr. 
Chairman.
    Chairman Lieberman. Thanks, Senator Akaka.
    For the information of my colleagues, in order of 
appearance, and in order of seniority, Senator Levin, Senator 
Landrieu, and Senator Pryor, although in order of age, clearly 
Senator Landrieu is the youngest.

               OPENING STATEMENT OF SENATOR LEVIN

    Senator Levin. I will trade places with Senator Landrieu. I 
would be happy to switch age if you can. [Laughter.]
    Thank you, Mr. Chairman.
    First, on the question of the formaldehyde-contaminated 
trailers, Admiral, let me ask you this question. You have 
stated that the testing by FEMA of occupied trailer units has 
not yet begun, and I am trying to figure out why.
    Mr. Johnson. Fortunately, Senator, we are working with CDC, 
and Dr. Runge is a very strong partner over months of dealing 
with this issue, but CDC was able to sign a contract and 
announce that yesterday and there were briefs to some of the 
staff and there will be briefs this afternoon that indicate 
that we will be able to begin testing by December 21. And so we 
will test 500 occupied travel trailers--these will be 250 in 
Louisiana and 250 in Mississippi--as part of a scientific 
statistically significant test that will allow us to generalize 
the results of those tests across the 50,000-some-odd travel 
trailers now occupied by those who were impacted by Hurricanes 
Katrina and Rita.
    Senator Levin. What has taken so long, and what is the 
purpose of the test? Are you trying to determine what the level 
of formaldehyde is?
    Mr. Johnson. That is correct, sir.
    Senator Levin. Why has that taken so long?
    Mr. Johnson. It has taken a long time in part because we 
have not had this problem before. In the past, in other 
disasters, we had people who resided as disaster victims in the 
travel trailers for very short periods of time. This is the 
first time we have had people in travel trailers for this 
length of time, up to 2 years, in which case some of these 
symptoms and the impacts on health have become more apparent. 
And so in part, quite frankly, it is a recognition on our part 
of the significance of the situation.
    Once we recognized that, and I certainly acknowledge that 
we could have, in hindsight, recognized that sooner, the desire 
is to go about it in a scientific way so that we, in fact, can 
ensure ourselves that we understand the full implications both 
now and into the future, both for the housing program and for 
the individuals who are involved. And so there are some 
significant health issues that Dr. Runge can speak of, but I 
will tell you that from an operational perspective, it took us 
a while to get a contract in place, which we had in place in 
October, and then we found that our actual ability to conduct a 
test, we had that locked and loaded, ready to go, but it was 
ahead of our ability to interpret the results. And so that if 
we could go into a trailer and provide someone with a reading 
of the level of formaldehyde, it is most important to be able 
to describe to that person what that result means so they can, 
in fact, make good decisions about whether or not they should 
stay in that trailer.
    Senator Levin. Why can't that be done with a brochure? This 
has been going on now since April 2006, when the testing began 
by the Sierra Club. In July 2006, there was a confirmation 
story about the levels of formaldehyde. In July 2006, another 
confirmation story. I don't understand why it takes so long to 
hire a contractor to determine the level.
    And I am going to leave it at that because I don't want to 
spend all my time on this issue. However, it seems totally 
unacceptable to me that it takes FEMA all this time to do a 
test on trailers which were known to FEMA a year and a half ago 
to contain unacceptable levels of formaldehyde. I was very 
troubled by David Paulison's statement in May that formaldehyde 
does not present a health hazard. I don't know who told him 
that. Doctor, do you know whether formaldehyde poses a health 
hazard or not?
    Dr. Runge. Well, Senator Levin, there is certainly no 
direct linkage to the thing that we worry most about, which is 
long-term cancer----
    Senator Levin. Does it pose a health hazard or not?
    Dr. Runge. It does present some hazards to people's health 
who are sensitive to formaldehyde.
    Senator Levin. Is that a yes?
    Dr. Runge. It is not a yes/no answer.
    Senator Levin. So in other words, to some people it 
presents a health hazard?
    Dr. Runge. To some people, it presents an immediate health 
hazard because of sensitivity.
    Senator Levin. And what about to other people? Might it 
present a health hazard to those who do not have an immediate 
problem?
    Dr. Runge. We are waiting for the National Cancer Institute 
to bring forth the study which is due this fall to determine 
whether there is an actual link----
    Senator Levin. In the meantime, we could have determined 
the level of formaldehyde in those trailers. That testing could 
have been done----
    Dr. Runge. Well, the problem is why we are waiting----
    Senator Levin. You are planning to test 500 trailers out of 
how many total trailers?
    Mr. Johnson. There are 50,000 travel trailers across the 
country, and it is important to conduct this test in a way that 
we can test 500 then legitimately generalize across the rest of 
the those travel trailers.
    Senator Levin. Let me move to another subject. Dr. Runge, 
would you add a vaccine category to the standardized equipment 
list and authorized equipment list that you folks use? Is there 
an easy answer to that?
    Dr. Runge. There is a process for doing so, and we have 
engaged in that process. I think I know where you are going 
with this.
    Senator Levin. That is underway?
    Dr. Runge. Yes.
    Senator Levin. The process? OK. That is great.
    There have been some questions asked, Admiral, about 
contracting already, but my question is a little bit different. 
It has to do with the Post-Katrina Emergency Management Act 
that was signed into law over a year ago, which required that 
DHS promulgate regulations to ensure that contracting agencies 
limit the excessive use of subcontractors by contractors and 
regulations that would limit the length of time a disaster-
related contract may remain active when it is awarded non-
competitively. Those regulations have not been issued. Why?
    Mr. Johnson. The regulations themselves require some study 
by the Federal Standards Board, and that process is in motion. 
While that process is in motion, sir, we are taking a number of 
steps inside FEMA to comply with the requirements of the law in 
advance of the regulations being issued.
    Senator Levin. Wasn't there a requirement that the 
regulations be issued by October?
    Mr. Johnson. Yes, sir, there was a requirement.
    Senator Levin. Was that requirement met?
    Mr. Johnson. No, sir, it has not been met.
    Senator Levin. Why?
    Mr. Johnson. It is not totally FEMA's responsibility to 
issue those regulations. I am not quite sure of the long delay. 
In FEMA, what we are looking at is the intent of those 
regulations and how we can begin to comply with it even in 
advance of the regulation being issued.
    Senator Levin. Well, you haven't complied with an important 
part of the law which requires that the regulations be adopted 
within a year. That, you have not complied with. And it seems 
to me when we pass a law, that you folks ought to comply with 
it, and a year is plenty of time. So let me express my 
dissatisfaction on that count, too.
    My time is up. Our expert on Hurricane Katrina is to my 
right, and she is younger. She has been very patient waiting 
for her senior colleague age-wise to ask questions.
    Chairman Lieberman. That would be Senator Landrieu you are 
speaking of?
    Senator Landrieu. You are doing so well, go right on. That 
is a great line of questioning.
    Senator Levin. I am over my time. Thank you.
    Chairman Lieberman. Senator Landrieu.

             OPENING STATEMENT OF SENATOR LANDRIEU

    Senator Landrieu. I thank you, and let me begin by thanking 
my colleagues, particularly Senator Collins, Senator Levin, and 
Senator Tester, for addressing several of the issues that I had 
on my agenda to discuss with you all, particularly the press 
conference, which was very troubling to many people in the 
country, particularly the people along the Gulf Coast that are 
still, as you know, struggling to rebuild. I think that has 
been covered.
    The trailer issue is another issue that I really appreciate 
the Senators focusing on because, Dr. Runge, I don't have to 
tell you how concerned people are along the Gulf Coast, over 
50,000 families, maybe 150,000 people, three people per 
trailer, and as you know, these are small trailers. Some of 
them have six people living in them. I pass them all the time 
when I am home, and when it is cold, most of the time the 
windows are closed and the doors are locked, and of course, 
your Department has issued rulings that the only time you have 
a problem is if the trailers are locked up. Well, in cold 
weather, people don't leave their doors and windows open.
    So I am pleased. Senator Stevens and I sent a letter to 
FEMA urging them to resume testing. You have testified today, 
Admiral Johnson, that testing will now proceed. I am very happy 
to hear that, and we will deal with the results. I hope FEMA, 
HUD, and this Administration are ready to deal with the 
results. If these trailers are found to be dangerous and people 
should not be living in them, then this government is required 
to come up with an alternate plan for people to find more long-
term comfortable arrangements.
    Now, I want to say something and then I have a few 
questions. I wanted to first of all thank you both for your 
willingness to serve. I particularly want, Admiral Johnson, for 
you to know that of all the agencies, the Coast Guard most 
certainly distinguished itself during our time of need. The 
people of Louisiana and New Orleans, as you know, there were 
over 1,200 people that died mostly by drowning. A lot more 
people would have died if it hadn't been for the Coast Guard, 
and I appreciate the service that you have given to our country 
for 38 years. Please give my best to the leaders of the Coast 
Guard.
    But I want to make it clear to this Committee and to the 
Chairman and Ranking Member that I am not prepared to support 
either nomination at this point--I am sure we will not be 
voting today--until I am confident that you all are both the 
agents of change that you claim to be.
    I am pleased to hear you speak about a New FEMA because the 
country desperately deserves one. The one that we have now is 
not ready, despite the efforts of the good leaders of this 
Committee, to handle a catastrophic disaster, and we need to be 
ready in the event that this happens sooner rather than later. 
It will happen again. It is just a matter of time.
    So I want to say that I am going to be listening very 
carefully to your answers to our questions and comments, and 
again, I want to be part of helping to build a New FEMA. Your 
appointments are very important because you signal whether this 
Committee is serious about approving nominees that are truly 
agents of change or just continuing business as usual, and this 
Senator is not going to support business as usual.
    Admiral Johnson, you have, I think, explained the press 
conference. I think you have talked about trailers. But there 
is right now pending a request of mine before FEMA which 
Chairman Paulison has indicated that he is indeed supportive 
of, but we have been unable to execute, and that is a pilot 
initiative to try to process more quickly project work order 
sheets, which is the way you do your business, as you know, 
trying to replace schools, hospitals, libraries, fire houses, 
and police stations. In this instance, it is schools.
    In the parishes that I represent, in a catastrophic 
disaster where 250,000 homes were destroyed, unlike California 
where only 1,600 homes were burned, in our situation, 250,000, 
there were a majority of schools in certain parishes--Orleans, 
Plaquemines, and Cameron--that were destroyed.
    Mr. Johnson. Right.
    Senator Landrieu. And we are still having difficulty 2\1/2\ 
years later, after billions have been spent by this Congress to 
help children find classrooms all over America. Do you know, 
Mr. Chairman, we are still having problems processing a 
solution to this. This Chairman and Ranking Member have 
approved a solution. Are you aware of what we are promoting? 
Are you supportive of it? And are you willing to at least try 
to pilot a global solution of reimbursement for schools for the 
parishes and counties that were devastated, and would you 
consider using this pilot to try to expedite the rebuilding of 
public facilities in the future?
    Mr. Johnson. Thank you for your question. You are an active 
Member of the Senate, an active Member of this Committee, and 
an active Member in helping to bring about New FEMA. And so 
from Dave Paulison and from others, we appreciate your personal 
interest and your persistence on a number of issues, one of 
those being schools.
    As you know, we work with Dr. Pastorek. We changed a lot of 
our approaches in FEMA and the use of Stafford and, for 
example, the alternative project. We have approached that in a 
way, with your urgings, that allows the district to take money 
that would have been given for the damage to any one school and 
to bundle that money together then and to use that with good 
decisionmaking to build the right schools in the right location 
that provides the capability those children deserve. And I 
think that is the thrust of your initiative.
    Senator Landrieu. So are you testifying that you are 
supportive of that new approach that has been approved by this 
Committee and are willing to push it through?
    Mr. Johnson. Absolutely. One of our highest agenda items of 
all the PWs is to focus on education, and I think we have done 
that with your urging, and I think that we have got some good 
results with the State to show for that.
    Senator Landrieu. OK. I know my time is short. I would like 
just another minute. I would like to submit to the record, Mr. 
Chairman and Ranking Member, a survey that actually just came 
out yesterday that was conducted by the University of New 
Orleans,\1\ and I would like it submitted to this Committee's 
record. I will point out in this that we have a long way to go 
because there is some good news and bad news in this survey. 
The bad news for FEMA is that over 80 percent of the people 
surveyed nationwide have a very negative impression of the 
leadership under Michael Brown, and they are not that familiar 
with the new leadership. In their mind, it is the same old FEMA 
and they don't like it and they want it changed.
---------------------------------------------------------------------------
    \1\ The survey by the University of New Orleans submitted by Sen. 
Landrieu appears in the Appendix on page 244.
---------------------------------------------------------------------------
    The other interesting information about this survey is that 
over 62 percent of the people around the country are willing to 
do more. Despite the fact that over $110 billion has been 
spent, Mr. Chairman, this survey indicates that people are 
willing to do more because they recognize that it was the 
Federal Government primarily that failed, along with some 
failures, of course, at the State and local level.
    There are some very interesting data. I think you will find 
it helpful to you as you build the New FEMA, or as you are 
nominated to build the New FEMA, and I just wanted to submit 
that for the record.
    I have several other questions, but my time is over. Mr. 
Chairman, I would like to submit them for the record and then I 
will be in touch with you all personally again. I appreciate 
your willingness to serve, but my vote will hinge solely on 
whether you both are agents of change or whether you are just 
there to continue the status quo. Thank you very much.
    Chairman Lieberman. Thanks, Senator Landrieu. Senator 
Pryor, aged as you are. [Laughter.]

               OPENING STATEMENT OF SENATOR PRYOR

    Senator Pryor. Thank you, Mr. Chairman. I am aged--anyway, 
we will talk about that later. [Laughter.]
    I want to thank both of the witnesses today for coming in 
and visiting with me in my office. I appreciate your time and 
your commitment to public service. I mean that.
    Let me, if I may, focus on you, Mr. Johnson, because there 
are three or four areas I want to cover very quickly. I will 
try to be very brief, but one is a follow-up to Senator Levin's 
questions. There was a theme in his questions, and I have heard 
the theme with other Senators. Quite frankly, I have been on 
this Committee for 5 years now and I have heard it pretty 
consistently with FEMA for 5 years, and that is how long it 
takes for FEMA to get done whatever it is supposed to do.
    Just today, Senator Levin asked about formaldehyde and 
trying to figure all that out and why it has taken so long, the 
contracting regulations, why it has taken so long, the trailer 
issue generally, and why it has taken so long. Yesterday in our 
office, we talked about an interim report, and I appreciate 
receiving it. I understand it is interim and it is not the 
final report, but we have been in contact, either my office or 
the Subcommittee, have been in contact with FEMA since February 
on that, and they told us it would be ready in March, and here 
we are in December and just got it.
    Are you committed and have you thought about ways to 
shorten the time tables in FEMA? It will take a management 
decision on your part and other people's part to try to shorten 
the time table, try to cut through the red tape, and get things 
turned around more quickly. Is that possible?
    Mr. Johnson. Thank you for your question, Senator Pryor. I 
believe it is possible, but I would like to point out, though, 
that the same people that are working on New Madrid plan are 
the same people who are running the National Response 
Coordination Center today for the snow storms and the ice 
storms in Oklahoma, and the same people that are planning the 
hurricane planning for the following year, and the same people 
that are involved in running day-to-day operations. And so in 
large part, as I mentioned to Senator Tester's question, the 
size of FEMA is sometimes an inhibitor in our making progress 
on those reports.
    And so we are committed to that. We do track that. We just 
are implementing a new system, which we never had before, that 
electronically tracks our progress on reports, and we are able 
to prioritize and get those things that must be done quicker. 
So I think it is a good observation, and we are working on 
that, sir.
    Senator Pryor. Yes. My experience is, and again, I have 
never run an agency that size, but when I was the Attorney 
General of my State, we had an Attorney General opinion 
function, which Senator Lieberman and I have talked about 
before because it is a trap for a lot of AGs out there, but 
nonetheless the average turnaround time before I came was over 
50 days, where a State agency would write for an opinion and it 
would take us over 50 days to respond. I don't think anyone 
ought to wait 50 days to hear back from his or her lawyer, so 
we shortened that time and made sure that we got it down to 
around 20 days.
    It took a commitment from the top and folks down the line 
to make sure it got done. In that situation, a lot of things 
would get on people's desks and just sit there. However, if you 
give employees a deadline and force them to turnaround the 
work, they will do it and you never develop the backlog. So I 
am not trying to tell you how to run your agency, but I do 
think that one of the sources of frustration with FEMA in the 
Congress, and the Senate, and this Committee has been the slow 
turnaround time on a number of fronts.
    The other thing I just wanted to mention is that I think it 
is very important for FEMA to work--I would love to say 
seamlessly, I don't know if that is a realistic statement--but 
I would love for FEMA to work very well with State and local 
and also the private sector. We talked about that a little bit 
yesterday. But the private sector is very good at responding to 
disasters and planning, staging, and preparing for disasters 
because their business rests on that. I think there are lessons 
that FEMA can learn from the private sector. Obviously not all 
of it transfers, but I also think that partnering with the 
private sector in many ways makes sense for FEMA and the 
Federal Government. Do you have any comments on that?
    Mr. Johnson. I think your point is well taken. FEMA 
established not long ago our first Loaned Executive--we have a 
Loaned Executive Program. We established one. And we actually 
have an executive from UPS who works inside FEMA's Logistics 
Directorate for that intent purpose, to reach out into those 
industries that represent core capabilities within FEMA and to 
bring those lessons inside FEMA.
    We just recently established our own Private Sector Office 
to begin to reach out further into the private sector 
community. So I think you make an excellent point and that 
should be part of New FEMA, a characterization of New FEMA, 
that we do establish stronger relationships and draw on those 
lessons learned from the private sector.
    Senator Pryor. Great. The last thing I wanted to say is 
that--and this is as much for my colleagues as for you--
yesterday we talked about a bill I had filed about the trailers 
and mobile homes and trying to put that on a time table for, 
first, FEMA to figure out exactly how many you need to have in 
reserve and be able to have those when you need them, and then, 
second, to move the ones you don't need out and then report 
back to Congress, etc. So I appreciate your looking at that 
legislation. I would love to circulate that among the Committee 
and among the Senate to let everybody look at it and see if it 
makes sense, but thank you for working with us on that.
    Mr. Johnson. Yes, sir.
    Senator Pryor. Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks very much, Senator Pryor, and I 
look forward to working with you on that legislation, as well.
    Dr. Runge, let me come back to bioterrorism and ask you as 
if I were a layman, which is we are all worried about the 
threat of bioterrorism, and the question would be, which people 
ask me as I go around, are we prepared for it? What is the 
state of our preparedness to both prevent and then, of course, 
respond to the threat of bioterrorism? So I know this is a main 
focus of your work. I know you don't have a lot of time to 
answer it, but give me your best quick answer on that.
    Dr. Runge. Mr. Chairman, we are infinitely better prepared 
than we were even 2 years ago or 3 years ago, and it has to do 
with the work not only of DHS, but with many partner agencies.
    Chairman Lieberman. So cite a few specifics of what has 
happened in the last couple of years.
    Dr. Runge. Well, for instance, we have set up a 
bioforensics capability through our NBACC program at DHS which 
affords the Department of Justice a chance to do rapid 
characterization of the genomes of agents of bioterror. The 
catastrophic scenario that we talk about with anthrax, for 
instance, is horrible, but it is even more horrible when you 
consider that there could be second, third, and fourth attacks. 
It is very important to get the forensic signatures on these to 
allow the Department of Justice and those who operate 
internationally to try to prevent those secondary attacks.
    The Department of State is very active in 
counterproliferation activities, both in the bio as well as the 
nuclear world. Clearly HHS is working very hard at developing 
human medical countermeasures in the event that prevention and 
protection are not successful.
    Chairman Lieberman. Talk to me a little bit about what the 
condition of our public health infrastructure is to respond to 
a bioterrorist attack. I mean, obviously, the kind of attack we 
fear is where an agent is released and it is of a contagious 
illness and it begins to spread, or it is a naturally occurring 
illness that assumes epidemic or pandemic proportions, presents 
similarly. Are we prepared for that surge in demand on our 
public health system?
    Dr. Runge. I would offer that this is more about the 
public's health than about public health in a conventional 
sense. The Public Health System in the United States atrophied 
for decades, particularly in the latter part of the last 
century. There was an infusion of cash and energy provided by 
the Congress to the Public Health System in the form of the 
supplemental funds for pandemic influenza. However, we can't 
rely on the public sector to provide for people's care in the 
event of either a natural or manmade health problem. This is a 
problem that we all have, and 99 percent or more of health care 
in this Country is delivered by the private sector. Until we 
have weaved them into the fabric of preparedness, we are not 
going to be truly prepared to manage those consequences.
    Chairman Lieberman. Is it clear within the Department what 
your role as principal advisor to the Secretary on public 
health would be in the case of a catastrophic bioterrorist 
attack?
    Dr. Runge. Yes, sir. We have a very small office, but job 
one was making sure that both the Secretary and those who have 
to respond, like FEMA, are supported by the best medical and 
public health advice possible. In so doing, we have been 
through several exercises looking at roles and responsibilities 
around the Department, and clearly if it is human health, HHS 
runs the Emergency Support Function 8, which is part of the 
Emergency Support Function structure. They are responsible for 
delivering health care to the population. And the Secretary of 
HHS is responsible for that function.
    Secretary Chertoff, however, has overall responsibility 
under HSPD-5 (Management of Domestic Incidents). We are his 
agents in ensuring that all of those elements are, in fact, 
occurring and that the interaction between mass care and health 
and agriculture and the environment are put together and 
everybody is discharging his duty as the plan says. So, in 
incident management, we serve more of an advisory role.
    Chairman Lieberman. I know you pointed to some of the 
progress made, and I am pleased to hear it, obviously. This is 
so big a threat which is just to say that if it hits us, it is 
going to be such a challenge to respond to it in a way that 
limits the impact on people's health or life. Tell me the two 
things that you think Congress could do which would best 
strengthen our national capacity to prevent and respond to a 
bioterrorist attack.
    Dr. Runge. In terms of immediacy, and I probably will 
respond to that question by saying that there are many 
important things to do, but the most immediate thing, first of 
all, is paying close attention to countermeasure development 
for the threats that we know exist and that we have provided a 
stratification of threats.
    Chairman Lieberman. Which we don't really have adequately 
yet, do we, the countermeasures?
    Dr. Runge. No, sir, we do not. Now, the Congress and 
Senator Burr and the PAPPA Act in December 2006 authorized the 
new BARDA, which is the advanced development part of HHS, ASPR; 
they are very busy over there, but the problem is that we still 
depend on small pharmaceutical firms, small technology firms to 
answer the call. There is insufficient incentive to large 
organizations, those that can bring the real power of their 
enterprise to bear. There is insufficient incentive to bring 
them to the dance to allow the full force of American 
enterprise to develop these sorts of countermeasures for us, 
whether they be vaccines or treatment for acute consequences.
    Chairman Lieberman. Yes. I totally agree with you on that, 
and it is an annoying problem. The failure to have adequate 
countermeasures is not the fault of your office or DHS. We just 
don't have them. They haven't been created or invented yet. 
Every time we try to create incentives, as some of us, Senator 
Burr and I and others have tried to do, to bring the big 
pharmaceutical companies into this, to create an incentive that 
the market does not normally create, we get pushed back because 
they say we are giving something away to big pharmaceutical 
companies. But we need big pharmaceutical companies to get on 
the field here. Otherwise, if this ever happens, we are just 
not going to have the countermeasures, the drugs to treat and 
inhibit the spread of that kind of disease.
    I have gone over my time. I thank you for your work----
    Dr. Runge. Could I just add one more thing, sir?
    Chairman Lieberman. Please.
    Dr. Runge. The second thing is that hospital systems and 
other private sector entities--whether they be (private sector) 
ambulances, which are 50 percent of our ambulance runs--until 
they are incentivized to invest in preparedness rather than 
just trying to stave off the horrible problems of 130 percent 
of the census that they have right now every single day, if we 
don't incentivize them to invest in these low-probability 
events, we are never going to reach a position where we are 
truly prepared for disasters.
    Chairman Lieberman. Well, I appreciate that answer, and I 
would like to work with you on how to flesh that out.
    Dr. Runge. Thank you.
    Chairman Lieberman. Senator Collins.
    Senator Collins. Thank you. Dr. Runge, one of the tragedies 
that we observed in the response to Hurricane Katrina was how 
many homebound elderly and disabled citizens who simply could 
not evacuate themselves died or suffered great inconvenience 
and injury during the aftermath of the storm. I met recently 
with representatives of Home Health Agencies from around the 
Country who pointed out that they can be a tremendous resource 
to FEMA and State and local emergency managers in helping to 
identify homebound elderly and disabled citizens. They know 
where they are in every community. And yet they felt that they 
are not fully involved in the planning for evacuation or 
emergency response.
    You and I talked about this to some extent in my office. 
What will you do to more fully take advantage of the expertise 
and knowledge of home health agencies that might be invaluable 
in the event of a catastrophe?
    Dr. Runge. Senator Collins, you actually piqued my interest 
when we talked about this, and I think I related to you that in 
my experience in Charlotte, S.C., I found that there was an 
army of people out there who were able to identify injury risks 
to elderly people who were at risk for alcohol abuse and so 
forth, and we actually implemented programs to get the Public 
Health System involved, not the health providers so much as the 
Meals on Wheels people and the people who just do in-home 
visitation and care.
    I really do want to pursue this. I believe that is exactly 
the right thing to do in terms of identifying who it is that 
has a special need. We will be working with FEMA very closely 
through the regions. I don't have a plan for it right now, but 
I will be working with you and your staff on that.
    Senator Collins. Admiral Johnson, I want to talk to you 
about a recent GAO report about the incredible amount of waste 
in the maintenance and deactivation contracts for the trailers 
and other manufactured housing that is being used for the 
Hurricane Katrina victims. As you know, the GAO estimated that 
for the period between June 2006 and January of this year 
alone, FEMA wasted more than $30 million in these contracts by 
using bidders who were not the most competitive, who did not 
offer the best price, and also by paying for work that was 
never completed. The report also found examples where there was 
a large payment to the prime contractor, but the individual who 
actually did the work received very little, suggesting that 
there were economies that could have been realized.
    Now, FEMA put out an official press statement responding to 
the report, and it did not really dispute GAO's calculations. 
Instead, it blamed poor contracting decisions on the urgency of 
the crisis created by Hurricane Katrina. The problem with that 
explanation is GAO is looking at a 6-month period that is 
literally years after Hurricane Katrina struck.
    This concerns me because although I see great progress by 
FEMA in awarding far fewer sole source non-competitive 
contracts, there still does not seem to be effective management 
of those contracts that are in force right now. What are you 
doing to improve the management of the contracts now in force?
    Mr. Johnson. Moving away specifically from that audit to 
look at the general question, I think part of that I would 
thank the Congress for, and there are really three elements of 
this system. First of all, there needs to be a system, and so 
we have hired new people, such as our Director of Procurement, 
and have actually created a better structure to evaluate 
contracts. We actually have a contract assistance team now that 
takes a look at the contract and how it hands off to those who 
implement the contract, and those two work together now where 
they did not before.
    The second area is that we needed more contracting 
officers. In Hurricane Katrina, FEMA had 36 contracting 
officers. We now have 118 contracting officers. So you need to 
have more people who understand that business, and right now, 
everyone in government wants to hire those same people. It is a 
skill set that we all need.
    And then the third is to use our contracting 
representatives (COTR). We now have a much more structured 
program that requires periodic education and training to 
sustain their qualification actually to enforce and oversee 
contracts. In the Gulf Coast specifically, we created a Program 
Management Office that now has a quality assurance surveillance 
program to ensure that those who are contracted for services 
provide that service. And that also includes a customer 
satisfaction survey from travel trailer occupants who sometimes 
are the most prone to give us information that we need to 
ensure that the contractor is meeting their responsibilities.
    So we take that audit very seriously. We didn't challenge 
its findings. We know we made mistakes in Hurricane Katrina. We 
didn't challenge its recommendations because they were on 
target, and we are focused on how we can actually implement 
those recommendations.
    Senator Collins. Thank you.
    Chairman Lieberman. Thanks very much, Senator Collins. 
Senator Tester.
    Senator Tester. Yes, thank you, Mr. Chairman.
    Mr. Johnson, in your opening statement, you spoke about 
partnerships. Very briefly, could you explain to me how you 
initiate and develop partnerships and who they are with?
    Mr. Johnson. We have partnerships across the board, at the 
Federal, State, and local levels, with the private sector, with 
nongovernmental organizations, and again, I point back to 
PKEMRA that now requires FEMA for the first time to have a 
National Advisory Council. That advisory council has 36 members 
with very structured recommendations about what backgrounds 
they bring to FEMA. That National Advisory Council met for the 
first time in October and had a conference call 2 weeks ago. We 
will meet again in February. It requires every region to have 
their own advisory council, and those have been established and 
for the most part have already had their first meeting. And so 
we have those advisory councils.
    We meet with what is called the Homeland Security 
Consortium, and the consortium represents State and local 
interests, private sector interests, all involved in homeland 
security, and we just attended their primary meeting in New 
Orleans 2 weeks ago. As I mentioned, we started a Loaned 
Executive Program. UPS is our first corporation. And we have 
established a Private Sector Office in FEMA. So we are very 
focused on how we can build those partnerships.
    Senator Tester. And I would assume most of those 
partnerships are for the purpose of helping you do your job 
more effectively, which would include taking advice from them 
on issues of concern when it comes to an emergency.
    Mr. Johnson. Exactly.
    Senator Tester. OK. On August 31, 2006, FEMA began 
refurbishing a former Army base in Anniston, Alabama, to house 
approximately 1,000 Hurricane Katrina evacuees, spending almost 
$8 million to make it inhabitable. It opened on September 15. 
According to the GAO, FEMA went ahead with the project despite 
warnings from FEMA officials in Alabama that the rooms were not 
needed. It turns out that they weren't needed. It stayed open 
for about 2 months and was later closed. What is your response 
to that? If you are to develop partnerships and get information 
from local folks and even the local folks in your own agency 
you are not listening to, what is the purpose of that? I mean, 
why?
    Mr. Johnson. I am not familiar enough with that facility to 
answer a question specific to that, and so I would be pleased 
if, with your permission, I could get back to you.
    Senator Tester. That would be absolutely good.
    On another issue, the White House appears interested in 
terminating the Emergency Performance Management Grant Program. 
It allows our communities to develop emergency management plans 
to respond to disaster. What is your view about this program?
    Mr. Johnson. Well, sir, as you know, that is part of a 
program built into the fiscal year 2009 budget, and what was 
released, unfortunately to the media, was the beginnings of an 
iterative discussion between elements of the Administration on 
how should we approach grants.
    Senator Tester. So it is still in, is what you are saying, 
and you support the program?
    Mr. Johnson. That is correct.
    Senator Tester. OK. Thank you very much.
    Dr. Runge, very quickly, I want to thank you very much for 
coming to visit me 2 to 3 weeks ago. At this point in time, I 
want to clarify, your agency is to respond, not to preempt, is 
that correct? Is that a fair classification?
    Dr. Runge. Not really. We have a comprehensive approach 
toward WMD and biodefense and to planning----
    Senator Tester. OK.
    Dr. Runge [continuing]. For Federal planning, incident 
management coordination, grants coordination, and so forth.
    Senator Tester. Perfect. You talked about the private 
sector's involvement and you talked about the fact that they 
need to be incentivized to be involved. Your best guess right 
now, what is the private sector's involvement at this point in 
time? Is it nonexistent or 50 percent?
    Dr. Runge. Here is the problem, Senator Tester, with 
respect to those that will be providing care in a disaster: 
They will do the best job that they can possibly do, and it 
happens time and time again. If there is a plane crash or if 
there is a tornado or whatever, these people, whether they are 
public or private sector health care systems, rally. They do 
the very best they can.
    Senator Tester. Right.
    Dr. Runge. The problem is that the scenarios that we are 
using, the canonical scenarios that we are gaming out, will 
undoubtedly result in a complete overwhelming of the health 
care system. We have not yet offered them guidance in terms of, 
if they reach certain levels of preparedness, what are we as a 
Federal Government prepared to do to protect them from 
liability issues, for instance.
    Senator Tester. Got it.
    Dr. Runge. So there are incentives that we can build into 
our planning, I think, that will help with this.
    Senator Tester. That would be good. You may already have 
these and if you do, that is great. I would love to have your 
recommendation on incentives that we could put forth to the 
private sector. I think it would be worth my look at it.
    When we visited one-on-one in my office, we talked a little 
bit about agriculture and potential terrorism that could 
revolve around that. Do you plan to or have you decided to hold 
exercises with State and local governments on this kind of 
potential agricultural terrorism?
    Dr. Runge. Yes, sir. My second planning priority is foot 
and mouth disease. USDA has a playbook for foot and mouth 
disease for agricultural units, for State agriculture and for 
local agriculture and for USDA, but we don't have an end-to-end 
plan.
    Senator Tester. OK.
    Dr. Runge. There is no question that this would be a 
devastating thing for Montana.
    Senator Tester. And the country.
    Dr. Runge. We have to get an end-to-end plan in place and 
drill it and test it, exercise it, and figure out how to fund 
it.
    Senator Tester. When do you anticipate that happening?
    Dr. Runge. We have committed to the Secretary to do it by 
the end of this fiscal year.
    Senator Tester. OK, good. I look forward to that occurring, 
too.
    In closing, I want to thank both of you for your public 
service over the many years that you folks have worked in the 
private sector and the public sector. I want to thank you for 
putting yourself in front of this Committee and putting 
yourself in front of the people for the job that you hope to be 
confirmed for. So thank you very much.
    Dr. Runge. Thank you, sir.
    Chairman Lieberman. Thanks, Senator Tester. I couldn't 
agree with you more. I thank you both for your testimony today; 
some tough questions, but you responded to them.
    I particularly want to thank you, Admiral Johnson, for your 
response to the question that Senator Tester just asked you 
about the Emergency Management Grant Programs. Today, Senator 
Collins and I and Chairman Bennie Thompson and Ranking Member 
Peter King from the House have sent a letter out. The rumor 
that has been in the press about the Administration proposing a 
fiscal year 2009 budget cutting out these grant programs, which 
we have just, Congress and the President signed the Act, 
``permanentized,'' if I can make up that word, in the second 
phase of the 9/11 legislation is very troubling to us, so I 
appreciate your clarification and I like your terminology. This 
is at the stage of it being an iterative process, not a 
decisive or conclusive process. So we will make sure you get a 
copy of that letter.
    I thank you both. Without objection, the record of this 
hearing is going to be held open until 12 noon tomorrow for the 
submission of any written questions or statements for the 
record. We have done that so quickly because it is my intention 
and Senator Collins' intention to move these nominations as 
quickly as we can through the Committee. Now, I take note 
obviously of what Senator Landrieu said, and I hope that you 
can both meet with her and hopefully we can go ahead because I 
would, if I can use the word again, I would like to 
permanentize both of you. I was going to say institutionalize 
both of you, but----
    Dr. Runge. Please don't. [Laughter.]
    Chairman Lieberman. Probably your families think you should 
already be institutionalized for going ahead with these jobs. 
But in any case, I hope those conversations go well. But I 
thank you for your public service.
    Senator Collins, do you want to add anything?
    Senator Collins. No. Thank you.
    Chairman Lieberman. Thank you. The hearing is adjourned.
    [Whereupon, at 11:43 a.m., the Committee was adjourned.]
















                            A P P E N D I X

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
